                 CLOSEOUT MEMORANDUM FOR M98030009
        On 5 March 1998, an NSF program officer1brought an allegation of misconduct in
science to OIG7sattention. The complainant: who had received the subject's3 NSF proposal4to
review, alleged that the subject's proposal contained some ideas5 taken from her previously
funded NSF proposal.6 She said that she knew the subject had seen her proposal because he had
sent her a copy of his ad hoc review. The subject's proposal, however, cited the source of the
these ideas to another scientist that predated the complainant's work.7

        OIG compared the ideas identified by the complainant in her funded NSF proposal and in
the subject's proposal and found them to be similar. However, our review of the three books
cited by the subject in his proposal as the source of these ideas showed that they contained these
ideas.

        OIG concluded that the ideas presented by the complainant in her proposal were not
unique to her. The subject's citations to the other scientist's work appropriately acknowledged
these similar ideas. There was no substance to the allegation that the subject plagiarized
(intellectual theft) the complainant's ideas.

       This case is closed and no further action will be taken.

cc: Staff Scientist, Attorney, AIG Oversight, IG




                                             Footnotes Redacted




                                           Page 1 of 1
